Nicholas J. Bronni
Solicitor General

Direct Dial: (501) 682-6302
nicholas.bronni@arkansasag.gov

October 12, 2020
Hon. Scott S. Harris
Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, DC 20543
Re:

Lard v. Arkansas, No. 20-5874 ***CAPITAL CASE***

Dear Mr. Harris:
I write on behalf of Respondent State of Arkansas to request a 30-day extension of the
deadline for filing a brief in opposition to the petition for a writ of certiorari in this matter. The
response is currently due November 2, 2020. With this requested extension, the response would
be due on December 2, 2020. Petitioner Jerry Lard does not oppose this request.
A 30-day extension is reasonable and necessary because of other professional obligations.
Along with other routine responsibilities and ongoing lower court matters related to COVID-19
and ongoing election matters, I and my staff are responsible for several other briefs in opposition
over the coming weeks. Additionally, the Solicitor General Unit of the Arkansas Attorney
General’s Office only recently assumed responsibility for this matter and will require additional
time to become sufficiently familiar with it to prepare a response to the petition for certiorari.
Sincerely,
/s/ Nicholas J. Bronni
Nicholas J. Bronni

cc: Lee Deken Short, leedshort@gmail.com, Counsel for Petitioner

323 Center Street, Suite 200, Little Rock, Arkansas 72201
Office: (501) 682-2007 | Fax: (501) 682-8084

